D




U.S. Department of Labor
R
A                                                                        Wage and Hour Division

F
T




                           Office of Inspector General—Office of Audit




                                                                         WHD LACKED EFFECTIVE FINANCIAL
                                                                         MANAGEMENT OF BACK WAGE AND CIVIL
                                                                         MONETARY PENALTY RECEIVABLES




                                                                                             Date Issued:   September 28, 2012
                                                                                          Report Number:      22-12-013-04-420
U.S. Department of Labor                                 September 2012
Office of Inspector General
Office of Audit

BRIEFLY…
                                                         WHD LACKED EFFECTIVE FINANCIAL
                                                         MANAGEMENT OF BACK WAGE AND CIVIL
Highlights of Report Number 22-12-013-04-420, issued     MONETARY PENALTY RECEIVABLES
to the Deputy Administrator for Wage and Hour.
                                                         WHAT OIG FOUND
WHY READ THE REPORT
                                                         WHD did not accurately account for and report back
The Wage and Hour Division (WHD) enforces several        wage and CMP receivables due from employers.
labor laws, including the Fair Labor Standards Act of    Furthermore, WHD staff may have erroneously written
1938 (FLSA). The FLSA is designed to ensure that         off collectible receivables. Additionally, we found that
millions of workers are paid the federal minimum wage    amounts had been written off in excess of the
and overtime. WHD investigates allegations of wage       receivable amounts due; a lack of segregation of duties
violations and assesses civil monetary penalties (CMP)   allowed staff the ability to initiate, review, and approve
when it proves an employer is a repeat and/or willful    debt write offs; and debts had been written off by users
violator of labor laws. WHD may also require that        with generic account names.
employers pay back wages to employees if employers
are found in violation. In such cases, WHD is            WHAT OIG RECOMMENDED
responsible for supervising the payment of back wages
due to each employee.                                    We recommended the Deputy Administrator for Wage
                                                         and Hour:
WHD is required to report to the U.S. Department of
Treasury’s (Treasury) Financial Management Service           		   Develop and implement policies and
(FMS) quarterly on the status of back wage and CMP                 procedures to account and report on the status
receivables. In fiscal years 2011 and 2010, WHD                    of back wage and CMP receivables.
reported in the DOL financial report approximately
$12 million and $8 million in CMP revenues, and              		   Improve monitoring of the work performed by
$99,000 and $21 million in disbursements of fiduciary              contractors to ensure accuracy and
assets to beneficiaries for back wage, respectively.               completeness.

The Financial Management Branch, a component of the          		   Update the agency’s policies regarding
Division of Administrative Operations within WHD, is               segregation of duties over the initiation, review,
responsible for the accounting and reporting on back               and approval of write-off transactions.
wage and CMP accounts receivables, collections, and
write-offs to Treasury’s FMS on the Treasury Report on       		   Modify the user guides for the back wage and
Receivables and Debt Collection Activities (TROR).                 CMP systems to include the reports used in the
                                                                   TROR preparation process and their purpose.
WHY OIG CONDUCTED THE AUDIT
We conducted this audit to determine whether WHD         WHD agreed with our recommendations and
had sufficient internal controls to ensure the           acknowledged errors in its preparation of the TROR for
completeness and accuracy of the receivable data         back wages and CMPs. WHD agreed the review
reported to Treasury’s FMS.                              process was not properly followed and stated it took
                                                         steps to bolster the implementation of its existing
We examined WHD’s reporting for the quarters ending      internal control process. However, WHD disagreed with
June 30, 2010, and March 31, 2011.                       certain errors we noted in its accounting over back
                                                         wages and CMPs. We continue to believe that WHD’s
READ THE FULL REPORT                                     lack of effective financial management of back wages
To view the report, including the scope, methodology,    and CMPs created a risk that staff could erroneously
and full agency response, go to:                         write off collectible receivables.
http://www.oig.dol.gov/public/reports/oa/2012/22-12-
013-04-420.pdf
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                 Management of Back Wage and CMP Receivables
                                   Report No. 22-12-013-04-420
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents


Assistant Inspector General’s Report ......................................................................... 1


Results in Brief .............................................................................................................. 2


Objective — Did WHD have sufficient internal controls to ensure the 

            completeness and accuracy of the receivable data reported to 

            Treasury for back wage and civil monetary penalties?........................ 4

         WHD did not accurately report the amount of back wage and CMP 

         receivables in its quarterly reports to Treasury. .................................................... 4


Recommendations ........................................................................................................ 8


Exhibits
         Exhibit 1 TROR Exception Example ................................................................... 11

         Exhibit 2 Write-Off Report Exception Example ................................................... 13


Appendices 15

         Appendix A Background ..................................................................................... 17

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 19

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D WHD's Response to Draft Report ................................................... 23

         Appendix E Acknowledgements ......................................................................... 35





                                                                   Management of Back Wage and CMP Receivables
                                                                                     Report No. 22-12-013-04-420
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                 Management of Back Wage and CMP Receivables
                                   Report No. 22-12-013-04-420
                                          U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 28, 2012

                       Assistant Inspector General’s Report


Nancy J. Leppink
Deputy Administrator
Wage and Hour Division
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Wage and Hour Division (WHD) enforces several labor laws, including the Fair
Labor Standards Act of 1938 (FLSA). FLSA is designed to ensure that millions of
workers are paid at least the federal minimum wage and appropriate overtime. WHD
investigates allegations of wage violations and assesses civil monetary penalties (CMP)
when it proves an employer is a repeat and/or willful violator of labor laws. WHD may
also require that employers pay back wages to employees if employers are found in
violation. In such cases, WHD is responsible for supervising the payment of back wages
due to each employee.

WHD is required to submit quarterly reports to the U.S. Department of Treasury’s
(Treasury) Financial Management Service (FMS) on the status of back wage and CMP
receivables. This report is called the Treasury Report on Receivables and Debt
Collection Activities (TROR). The TROR tells stakeholders the total value of the
receivables owed to federal agencies and the status of the debt portfolio.

Our audit objective was to determine whether WHD had sufficient internal controls to
ensure the completeness and accuracy of the receivable data reported to Treasury for
back wage and CMP.

To accomplish our objective, we obtained an understanding of WHD’s process for
accounting and reporting on back wage and CMP receivables by examining WHD’s
policies and procedures and interviewing contractor and WHD officials. We tested the
reconciliation of the data reported in the TRORs to WHD’s back wage and CMP
systems. We performed analytical procedures on the TRORs and tested to ensure they
were prepared in accordance with Treasury’s FMS requirements. The audit examined
WHD’s accounting and reporting on the status of accounts receivables for back wage
and CMP to Treasury’s FMS for the quarters ending, June 30, 2010, and
March 31, 2011.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the

                                                Management of Back Wage and CMP Receivables
                                            1                     Report No. 22-12-013-04-420
                                           U.S. Department of Labor – Office of Inspector General



audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Additional background information is detailed in Appendix A, and our objective, scope,
methodology, and criteria are detailed in Appendix B.


RESULTS IN BRIEF

WHD lacked an effective internal control process to account and report on the status of
back wage and CMP receivables. Furthermore, WHD staff may have erroneously
accounted for write-offs of back wage and CMP. Therefore, WHD was not able to
ensure the receivable data reported to Treasury were complete and accurate.

The number and amount of back wage and CMP receivables were not consistently
reported to Treasury, did not agree with supporting documentation, or were incorrectly
entered into Treasury’s information system by WHD staff. For example, reported
amounts for back wage did not agree with the supporting documentation for 16 of the19
items we tested (84 percent). WHD reported approximately $13.3 million in net
receivables to Treasury; however, supporting documentation showed net receivables to
be $22.8 million.

We identified errors in WHD’s accounting for receivables written off as uncollectible. For
example, amounts were written off in excess of the receivable amounts due from
employers. WHD lacked controls in its system to prevent such transactions.
Furthermore, WHD staff had the ability to initiate, review, and approve amounts written
off because of a lack of segregation of duties within the system. Additionally, amounts
written off were initiated, reviewed, and approved by users with generic account names,
which allowed WHD staff to make entries and not be identified within the system.
Because WHD was unable to provide us reconcilable data from the back wage and
CMP systems, it was not possible to test the transaction detail in those systems.
Therefore, we were unable to determine the extent to which errors occurred within those
systems or whether transactions related to back wage and CMP receivables were
proper.

Furthermore, WHD’s review of the work performed by its contract accountant to prepare
the TRORs was inadequate. There was no evidence that WHD staff verified the
accuracy and completeness of the data in the spreadsheets used by the contract
accountant to prepare the TROR by comparing that data with back wage and CMP
system-generated reports. Instead, WHD relied entirely on the contractor to prepare the
TROR report on the status of back wage and CMP receivables. Thus, errors were
allowed to be reported and go undetected by WHD staff.




                                                Management of Back Wage and CMP Receivables
                                            2                     Report No. 22-12-013-04-420
                                           U.S. Department of Labor – Office of Inspector General



We identified inconsistencies in WHD’s quarterly reporting of back wage and CMP
receivables to Treasury. Back wage receivables written off increased
388 percent in the 2nd quarter of FY 2011 from the 1st quarter of FY 2011, and WHD
had reported the same balances on the TRORs in the 1st and 2nd quarters of FY 2010.

WHD accumulated data on the status of receivables from the back wage, CMP, and
Treasury’s systems; however, the system user guides did not identify what information
should be captured and how it should be used. Thus, data on the status of receivables
were used and reported without WHD management having any knowledge of how the
data were derived.

We made four recommendations to the Deputy Administrator for Wage and Hour to:
(1) develop and implement policies and procedures to account and report on the status
of back wage and CMP receivables; (2) improve monitoring of the work performed by
contractors to ensure accuracy and completeness; (3) update the agency’s policies
regarding segregation of duties, over the initiation, review, and approval of write-off
transactions; and (4) modify the user guides for the back wage and CMP systems to
include the reports used in the TROR preparation process and their purpose.

In response to the draft report, the Deputy Administrator for WHD agreed with our
recommendations and is taking corrective actions. WHD acknowledged errors in the
preparation of the TROR, agreed that the review process was not properly followed, and
stated it took steps to bolster the implementation of its existing internal control process.
Furthermore, WHD stated it was focused on correcting these errors to ensure that
TROR submissions are complete, accurate, and contain all supporting documentation.

WHD disagreed with certain errors we had cited regarding its accounting over back
wages and CMPs. WHD provided information in its response to resolve some of the
deficiencies. However, this did not adequately address the deficiencies noted in the
report. The Deputy Administrator’s response is included in its entirety as Appendix D.

We continue to believe that WHD’s lack of effective financial management of back
wages and CMPs creates a risk that staff could erroneously write off collectible
receivables.




                                                 Management of Back Wage and CMP Receivables
                                             3                     Report No. 22-12-013-04-420
                                          U.S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS

Objective — Did WHD have sufficient internal controls to ensure the
            completeness and accuracy of the receivable data reported to
            Treasury for back wage and civil monetary penalties?

      WHD did not accurately report the amount of back wage and CMP receivables in
      its quarterly reports to Treasury.

WHD lacked an effective internal control process to account and report on the status of
back wage and CMP receivables; therefore, WHD was not able to ensure the receivable
data were complete and accurate. Because WHD management lacked adequate
controls over back wage and CMP, WHD staff may have erroneously written off
collectible receivables for back wage and CMP.

Errors in reporting on the status of receivables for back wage and CMP to
Treasury

The status of the receivables due on the TROR for back wage and CMP was not
consistently reported, did not agree with supporting documentation, and was incorrectly
entered into Treasury’s FMS Debt Management Information System (DMIS). In each of
the basic attributes we tested, such as validating the data reported to Treasury’s FMS
with supporting documentation or verifying the TROR was properly completed, we noted
at least one error.

For example, on the TROR as of June 30, 2010, WHD did not report the correct number
of back wage receivables in 21 of 27 (78 percent) items we tested (see Exhibit 1).
Additionally, WHD incorrectly entered the amount of back wage receivables in DMIS in
6 of 44 (14 percent) tested items. The amounts of back wage receivables reported on
the TROR were not properly supported in 19 of 44 instances (43 percent). In 16 of those
19 instances (84 percent), the amount did not agree with supporting documentation.

From our testing, we noted discrepancies between the supporting documentation used
to prepare the TROR and the beginning accounts receivable balance, as well as the
amount of new accounts receivables, accruals, and collections reported on the TROR.
While we noted improvements in WHD’s reporting as of March 31, 2011, errors
continued to exist between what was reported and the supporting documentation.
These errors continued to exist because WHD’s existing internal control process was
not sufficient to ensure the data reported on the TROR was complete and accurate.

WHD reported approximately $13.3 million in net back wage receivables to Treasury.
However, based upon the supporting documentation, WHD should have reported
approximately $22.8 million, a net difference of $9.5 million. Although WHD
management stated they recognized the error in FY 2010 and attempted to address it in
FY 2011, the error was not disclosed to us nor did WHD provide documentation to
support their attempts to correct the error. In addition, we noted discrepancies in WHD’s

                                                Management of Back Wage and CMP Receivables
                                            4                     Report No. 22-12-013-04-420
                                          U.S. Department of Labor – Office of Inspector General



reporting of the debt categories – delinquent rescheduled debt, non-delinquent
rescheduled debt, and age classifications – when compared to the supporting
documentation.

The Treasury’s FMS Instructional Workbook for Preparing the Treasury Report on
Receivables and Debt Collection Activities requires that the figures provided in the
TROR to be reconcilable with the agency’s financial statements. Although WHD officials
stated that a portion of the described discrepancies could be accounted for by receipts,
WHD could not provide sufficient evidence to support this claim. Based on the errors we
identified, WHD management could not ensure that the TROR reports on the status of
back wage and CMP receivables were accurate or reliable. As such, any other official
reports using the TROR data submitted by WHD and disseminated by Treasury’s FMS
to Congress, Office of Management and Budget, or the public would have contained
inaccurate information.

Back wage and CMP data not reconcilable

Because of the discrepancies we identified in WHD’s reporting on back wage and CMP
receivables, we requested additional data from the back wage and CMP systems to
perform further testing of the transaction detail. However, WHD was unable to provide
auditable data populations that were reconcilable with the data in the
system-generated reports used to prepare the TRORs or the data reported in the
TRORs. For example, WHD was unable to identify which fields in the data populations
were applicable to accounts receivables, including collections, write-offs, and the
accrual of penalties, interest, and administrative costs. WHD management officials
believed the data from the tables and fields corresponded to the TROR reports;
however, they were unable to provide a crosswalk from data populations to the reports.
Thus, it was not possible to test the transaction detail in the back wage and CMP
systems.

Without auditable data, WHD could not reconcile the data from the back wage and CMP
systems with the data reported to Treasury’s FMS or the system generated reports.
Such reconciliations would have detected errors or anomalies in WHD’s accounting and
reporting of back wage and CMP. Until WHD can produce reconcilable data from the
back wage and CMP systems, errors will continue to exist and will go undetected.

Errors in accounting for write-offs of back wage and CMP

Because WHD was unable to provide auditable data, we examined the reports that
were used to accumulate the data on the status of back wage and CMP receivables.
We identified numerous accounting errors. For example, we identified errors in WHD’s
accounting for receivables written off (see Exhibit 2). One CMP case included current
period write-offs of $775,738 and prior period write-offs of $130,122, which was more
than the $142,078 total due. WHD management stated that although this receivable had
been written off, they subsequently received payments from the debtor. According to
WHD management, each time a payment was received, Treasury required the amount

                                               Management of Back Wage and CMP Receivables
                                           5                     Report No. 22-12-013-04-420
                                           U.S. Department of Labor – Office of Inspector General



written off to be reversed in order to apply the payment. After the payment was applied,
the remaining amount due was written off to show the case as a zero balance.
However, during our review of Treasury guidance we noted no such requirement, but
rather found the requirement to be that an agency should establish accounting
procedures to account for collections on written-off debts. As a result of the accounting
reversals WHD had made, the total amount written off related to this case and reported
to Treasury on the TROR was overstated.

We also found that a lack of segregation of duties allowed WHD employees to both
review and approve amounts written off due from employers for back wage and CMP. In
each of the five regional offices, we identified write-offs that were both reviewed and
approved by the same employee. Although the back wage and CMP systems user
guides required every write-off to be completed by three separate people — one person
each to initiate, review, and approve — these internal controls were not operating
effectively to prevent such transactions from occurring. WHD management stated that
there were some exceptions to the three separate individuals write-off policy, such as
write-offs of amounts that were less than $20. However, these exceptions were not
documented in WHD’s policies or procedures. Regardless of such an exception, we
identified write-offs greater than $20 that were both reviewed and approved by the same
employee.

We also identified write-offs that were reviewed and approved by employees with
generic user accounts, such as “Former WH” or “BWFS.” In each of the five regional
offices, we identified write-offs that were both reviewed and approved by generic user
accounts. As such, users had the ability to review and approve erroneous entries and
not be identified within the system. WHD management stated that these generic user
accounts represented automatic write-offs generated by the system — no WHD staff
made the write-offs. While we noted in the system user guides that once cases reached
24-months delinquent they were automatically written off, we noted no evidence that
these generic user accounts were associated with such transactions. Furthermore,
because WHD could not provide auditable data for testing, we were unable to determine
whether these accounts were 24-months delinquent.

WHD’s inadequate policy guidance for the processing of receivable write-offs hampered
its ability to determine whether write-offs had been properly authorized and recorded.
As a result, WHD is at risk that accounting errors may occur and go undetected.

Inadequate monitoring of contractors preparing the report on the status of back
wage and CMP receivables

WHD lacked effective policies or procedures to report on the status of back wage and
CMP receivables and relied on the knowledge of contractors to report such information
correctly. The U.S. Government Accountability Office’s “Standards for Internal Control in
the Federal Government” states, in part:




                                                Management of Back Wage and CMP Receivables
                                            6                     Report No. 22-12-013-04-420
                                             U.S. Department of Labor – Office of Inspector General



       Management is responsible for developing the detailed policies,
       procedures, and practices to fit their agency’s operations and to ensure
       that they are built into and an integral part of operations... internal control
       and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for
       examination. The documentation should appear in management
       directives, administrative policies, or operating manuals and may be in
       paper or electronic form. All documentation and records should be
       properly managed and maintained.

WHD relied entirely on contractors to report on the status of receivables for back wage
and CMP. The current contractor assumed this function in April 2010 from the preceding
contractor who departed in February 2010. The contract accountant informed us the
TRORs were prepared by following the documentation of the preceding contractor and
Treasury’s “Instructional Workbook for Preparing the Treasury Report on Receivables
and Debt Collection Activities.” WHD’s review of the work of the contract accountant
was inadequate. For example, WHD did not compare the data in the spreadsheets used
by the contractor to report on the receivables status with data from the back wage,
CMP, and Treasury’s FMS systems to verify the data’s accuracy and validity. Thus,
errors were allowed to be reported and went undetected by WHD staff.

Inconsistencies in WHD’s quarterly reporting

We identified inconsistencies in WHD’s quarterly reporting on the status of back wage
and CMP receivables. For example, back wages written off increased
388 percent in the 2nd quarter of FY 2011 and 443 percent in the 3rd quarter of
FY 2010 when compared to the previous quarter. WHD was unable to explain these
significant fluctuations. Furthermore, WHD reported the same balances on the TRORs
in the 1st and 2nd quarter of FY 2010. Upon inquiry, WHD staff stated this error
occurred due to the transition of the TROR preparation process from the previous
contractor to the new contractor and a lack of internal resources.

We also found errors on the status of receivables that had not been detected through
supervisory review. For example, WHD reported “write-offs - currently not collectible”
using the totals from two separate reports. However, one of the reports incorporated
data from the other report. By adding the two reports together, WHD overstated the total
amount of “write-offs – currently not collectible.” Furthermore, neither report included the
total amount of write-offs for the fiscal year-to-date, October 1, 2009, to June 30, 2010.
Instead, the reports included data for the period January 1, 2010, to June 30, 2010.

WHD accumulated the data on the status of receivables from reports generated from
the back wage, CMP, and Treasury’s FMS systems; however, the system user guides
did not identify what information should be captured and how it should be used. Thus,
data on the status of receivables was used and reported without WHD management
having any knowledge of how that data was derived.



                                                  Management of Back Wage and CMP Receivables
                                              7                     Report No. 22-12-013-04-420
                                           U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend the Deputy Administrator for Wage and Hour:

1.	 Develop and implement policies and procedures to account and report on the status
    of back wage and CMP receivables.

2.	 Improve monitoring of the work performed by contractors to ensure accuracy and
    completeness.

3.	 Update the agency’s policies regarding segregation of duties over the initiation,
    review, and approval of write-off transactions.

4.	 Modify the user guides for the back wage and CMP systems to include the reports
    used in the TROR preparation process and their purpose.


We appreciate the cooperation and courtesies that Wage and Hour personnel extended
to the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                Management of Back Wage and CMP Receivables
                                            8                     Report No. 22-12-013-04-420
            U.S. Department of Labor – Office of Inspector General




Exhibits





                 Management of Back Wage and CMP Receivables
             9                     Report No. 22-12-013-04-420
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Management of Back Wage and CMP Receivables
              10                     Report No. 22-12-013-04-420
                         U.S. Department of Labor – Office of Inspector General



                                                                   Exhibit 1
TROR Exception Example




                               Management of Back Wage and CMP Receivables
                          11                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 12                     Report No. 22-12-013-04-420
                                     U.S. Department of Labor – Office of Inspector General



                                                                               Exhibit 2
Write-Off Report Exception Example




                                           Management of Back Wage and CMP Receivables
                                      13                     Report No. 22-12-013-04-420
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Management of Back Wage and CMP Receivables
              14                     Report No. 22-12-013-04-420
              U.S. Department of Labor – Office of Inspector General




Appendices





                    Management of Back Wage and CMP Receivables
               15                     Report No. 22-12-013-04-420
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Management of Back Wage and CMP Receivables
              16                     Report No. 22-12-013-04-420
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix A
Background

The WHD enforces several labor laws, including the FLSA. The FLSA is designed to
ensure that millions of workers are paid the federal minimum wage ($7.25 per hour) and
overtime. WHD investigates allegations of wage and overtime violations and assesses
CMP when it can prove an employer is a repeat and/or willful violator of labor laws.
WHD may also require employers to pay back wages to employees if employers are
found in violation. Back wages represent amounts an employer did not properly pay its
employees, which can include pay below the minimum wage or incorrect pay for
overtime hours. WHD is responsible for supervising the payment of back wages due to
each employee. An employer must provide evidence to WHD indicating the employee
had received their back wages. In the event an employer does not provide evidence of
payment or refuses to pay back wages to an employee or CMP to WHD, WHD will
assess interest, administrative cost charges, and other fees. Should the debt become
delinquent more than 180 days, the debt must be referred to the Treasury for debt
collection action in accordance with the Debt Collection Improvement Act of 1996
(DCIA). The collection, disbursement, and financial reporting of activity related to CMP
and back wage are maintained in the CMP and back wage systems, respectively.

The FMS, a bureau of Treasury, has delegated authority for carrying out the Treasury’s
government-wide debt collection responsibilities. WHD is required to report to
Treasury’s FMS quarterly on the status of administrative receivables, which includes
back wage and CMP receivables, on the TROR. The TROR is the Treasury’s only
comprehensive means for periodically collecting data on the status and condition of the
Federal Government’s non-tax debt portfolio, in accordance with the requirements of the
DCIA. The TROR identifies the balance of receivables, accruals, collections, and
write-offs at the end of the reporting period. The TROR provides stakeholders the total
book value of the receivables owed to federal agencies and the status of the Federal
Government’s debt portfolio. In FY 2011 and 2010, WHD reported in the DOL financial
report approximately $12 million and $8 million in CMP revenues, and $99,000 and
$21 million in disbursements of fiduciary assets to beneficiaries for back wage,
respectively. The Financial Management Branch, a component of the Division of
Administrative Operations within the WHD, is responsible for accumulating, reviewing,
and reporting on back wage and CMP accounts receivables, collections, and write-offs
to Treasury’s FMS on the TROR.

We initiated this audit because of concerns that WHD lacked effective financial
management over back wage collected on behalf of employees and CMP. In 2008, the
Government Accountability Office also noted that WHD officials did not know whether
back wage or CMP had been collected from employers even though this information
was tracked in its financial accounting system. Thus, WHD could not use this
information to determine whether it was ensuring workers actually receive the back
wages they were entitled to or that employers were being appropriately penalized for
violating FLSA.



                                                Management of Back Wage and CMP Receivables
                                           17                     Report No. 22-12-013-04-420
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Management of Back Wage and CMP Receivables
              18                     Report No. 22-12-013-04-420
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The OIG conducted the audit to determine whether WHD had sufficient internal controls
to ensure the completeness and accuracy of the receivable data reported to Treasury
for back wage and CMP.

Scope

The audit examined WHD’s accounting and reporting of accounts receivables for back
wage and CMP to the Treasury’s FMS. We examined WHD’s reporting for fiscal
year-to-date as of the two quarters ending, June 30, 2010, and March 31, 2011. We
conducted fieldwork at WHD headquarters in Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. We obtained our understanding of WHD’s process of accounting
and reporting on back wage and CMP receivables by examining WHD’s policies and
procedures and interviewing contractor and WHD officials from the Division of
Administrative Operations, Financial Management Branch.

To answer our audit objective, we selected the TRORs for back wage and CMP
submitted for the fiscal year-to-date as of the two quarters ending, June 30, 2010, and
March 31, 2011. We selected the fiscal year-to-date TRORs for the quarters ending,
June 30, 2010, and March 31, 2011, as they were the most recent submissions of the
TRORs over the course of our audit. We tested the reconciliation of the data reported in
the TRORs to the back wage and CMP systems. We performed analytical procedures
over the TRORs by comparing them to prior quarterly submissions and investigating
significant variances by obtaining explanations from management. We tested to ensure
the TRORs were prepared in accordance with Treasury’s FMS requirements.




                                                Management of Back Wage and CMP Receivables
                                           19                     Report No. 22-12-013-04-420
                                          U.S. Department of Labor – Office of Inspector General



Criteria

We used the following criteria to accomplish our audit:

      Title 31, United States Code § 3719, Reports on Debt Collection Activities

      Treasury Financial Manual, Volume I, Part 2, Chapter 4100, Debt Management
       Reports

      Treasury Financial Manual, Volume I, Part 2, Chapter 4100, Supplement,
       Instructional Workbook for Preparing the Treasury Report on Receivables and
       Debt Collection Activities

      Department of Labor Manual Series – Financial Management, Chapter 1100,
       Debt Management


      The Debt Collection Improvement Act of 1996


      Wage and Hour Division Guidance


      Standards for Internal Control in the Federal Government





                                                Management of Back Wage and CMP Receivables
                                           20                     Report No. 22-12-013-04-420
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations

CMP             Civil Monetary Penalties

DCIA            Debt Collection Improvement Act of 1996

DMIS            Debt Management Information System

FLSA            Fair Labor Standards Act of 1938

FMS             Financial Management Service

FY              Fiscal Year

Treasury        U.S. Department of Treasury

TROR            Treasury Report on Receivables and Debt Collection Activities

WHD             Wage and Hour Division




                                           Management of Back Wage and CMP Receivables
                                      21                     Report No. 22-12-013-04-420
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Management of Back Wage and CMP Receivables
              22                     Report No. 22-12-013-04-420
                                 U.S. Department of Labor – Office of Inspector General



                                                                        Appendix D
WHD's Response to Draft Report




                                       Management of Back Wage and CMP Receivables
                                  23                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 24                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 25                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 26                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 27                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 28                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 29                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 30                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 31                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 32                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 33                     Report No. 22-12-013-04-420
U.S. Department of Labor – Office of Inspector General




      Management of Back Wage and CMP Receivables
 34                     Report No. 22-12-013-04-420
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Joseph L. Donovan, Jr. (Audit Director), Sean
Gilkerson, Bashar Chowdhury, and Orville Hylton.




                                                Management of Back Wage and CMP Receivables
                                           35                     Report No. 22-12-013-04-420
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone: 	    1-800-347-3756
                202-693-6999

Fax: 	          202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor

         200 Constitution Avenue, N.W.

         Room S-5506

         Washington, D.C. 20210

